                  Assessment of Worksharing




                               July 12, 2010




Prepared by U.S. Postal Service Office of Inspector General
            Risk Analysis Research Center
            Report Number: RARC-WP-10-005
U.S. Postal Service Office of Inspector General                                July 12, 2010
Assessment of Worksharing                                                   RARC-WP-10-005


                             Assessment of Worksharing

                                       Executive Summary

For more than 30 years, the U.S. Postal Service has offered worksharing — an
innovative partnership with its customers that touches all aspects of its operations.
Worksharing is a form of outsourcing where mailers perform specific activities in
exchange for reduced postage prices. From modest beginnings, worksharing has
evolved into a complex program affecting most mail volume and driving fundamental
Postal Service operations. It has also caused much debate. To some, it liberated an
upstream supply chain to the private sector, increased efficiency, grew mail volume, and
allowed the Postal Service to provide more customized pricing consistent with its
customers’ needs. To others, it exposed the Postal Service to revenue risks, provided
subsidies to big mailers, and sacrificed postal jobs to unfair competition.

The U.S. Postal Service Office of Inspector General Risk Analysis Research Center
assessed the worksharing program and offers the following key findings.

     Worksharing has rapidly grown to dominate the Postal Service’s business and
      today represents over 80 percent of mail volume. Worksharing determines where
      mail is deposited and how it is processed.
     Worksharing has supported the growth of a large mailing industry that allowed
      mailers to take on a much larger role in preparing and presenting their mail.
     The Postal Service provided $15 billion worth of discounts for work that saved
      $14.8 billion in avoided costs in fiscal year 2008.
     Worksharing has a crowded field of influential stakeholders with widely differing
      views on how it should operate. While many are concerned about the price of
      postage, others are concerned about the level of the discounts or the competition
      for work and jobs.
     The Postal Service’s ability to retain earnings under the Postal Accountability and
      Enhancement Act of 2006 may create an incentive for the Postal Service to set
      discounts to be less than the Postal Service’s avoided costs, especially in areas
      where discounts greatly exceed mailer cost.
     Because workshare discounts may greatly exceed mailer costs, there could be
      instances where less efficient providers might be engaging in worksharing in
      opposition to lowest combined cost principles of economic efficiency.
     As worksharing has grown, it has created unintended consequences. Complicated
      rules and rates may shut out new entrants or less experienced mailers and make it
      hard to ensure the correct rates are being paid.
     While some may criticize the Postal Service’s worksharing efforts, the Postal
      Service is recognized as having the largest, most sophisticated, and most
      transparent worksharing program in the world.


                                                  i
U.S. Postal Service Office of Inspector General                                                                 July 12, 2010
Assessment of Worksharing                                                                                    RARC-WP-10-005




                                                Table of Contents

Background ..................................................................................................................... 1


Key Worksharing Findings .............................................................................................. 2

          1. Worksharing Has Rapidly Grown to Dominate the Postal
             Service’s Business .......................................................................................... 2

          2. Workshare Discounts Supported the Growth of a Large
             Mailing Industry that Shared $15 Billion in Postal Service
             Discounts in FY 2008 ...................................................................................... 6

          3. Worksharing Has a Crowded Field of Influential
             Stakeholders with Conflicting Interests ........................................................... 7

          4. There Could be a New Incentive and Opportunity to Set
             Workshare Discounts at Less Than Avoided Costs ........................................ 9

          5. Because Discounts May Greatly Exceed Mailer Costs, Some
             Less Efficient Providers of Mail Services Might be Engaging
             in Worksharing .............................................................................................. 11

          6. Worksharing Has Created Unintended Consequences ................................. 13

          7. The United States Has the Largest, Most Sophisticated
             Worksharing Program in the World ............................................................... 14


Conclusion .................................................................................................................... 14




                                                                ii
U.S. Postal Service Office of Inspector General                                                                July 12, 2010
Assessment of Worksharing                                                                                   RARC-WP-10-005



                                                        Tables

Table 1         FY 2008 Worksharing Cost Avoidance & Discounts by Class
                of Mail ........................................................................................................ 7
Table 2         The Value of Workshared Activities in FY 2008 ....................................... 11


                                                       Figures

Figure 1        First-Class Mail Growth.............................................................................. 2
Figure 2        Standard Mail Growth ................................................................................ 3
Figure 3        Parcel Post Growth .................................................................................... 3
Figure 4        Single-Piece vs. Workshared Mail in the Three Major Mail
                Classes ...................................................................................................... 4
Figure 5        Percent of Workshared Mail Entered at Automation Rates ........................ 5
Figure 6        Percent of Workshared Mail by Destination Entry Rate ............................. 5
Figure 7        Worksharing Stakeholders ......................................................................... 8
Figure 8        Cost of Mail Processing Activity by the Postal Service &
                Mailers ..................................................................................................... 12


                                                   Appendices

Appendix A Key Players in the Worksharing Supply Chain......................................... 16
Appendix B Cost Avoidance & Discount Calculation Methodology ............................. 17
Appendix C Stakeholders and their Opposing Interests .............................................. 18
Appendix D Worksharing at Other Posts ..................................................................... 19




                                                             iii
U.S. Postal Service Office of Inspector General                                                          July 12, 2010
Assessment of Worksharing                                                                             RARC-WP-10-005




                                Assessment of Worksharing


Background
The issue of worksharing was once a relatively quiet economic debate conducted solely
by interested parties during rate case proceedings within the confines of the Postal
Regulatory Commission (PRC). 1 Today, it has become a heated and highly politicized
public debate that has spread even to the halls of Congress. As workshare discounts
became more widespread, they also became more controversial. In general, mailers
and Mail Service Providers (MSPs) favored larger discounts while Postal Service
competitors and the American Postal Workers Union (APWU) favored smaller or no
discounts.

PRC Docket R2006-1 was the fourteenth and final omnibus rate proceeding under the
Postal Reorganization Act of 1970 (PRA). The omnibus rate proceeding was a public
forum that allowed postal stakeholders an opportunity to intervene and inform policy
deliberations, and over the years, worksharing evolved as a product of those
deliberations. However, under the Postal Accountability and Enhancement Act of 2006
(PAEA), the omnibus rate case was eliminated although the PRC retained regulatory
authority to review worksharing and ensure compliance. Today, the Postal Service
proposes price changes to the PRC 45 days before the new prices become effective
and changes must comply with certain rules for establishing worksharing rates and
prices. Adjustments to prices at the class level are limited by an index of inflation 2 and
workshare discounts cannot be more than the cost the Postal Service avoids, except in
four limited exceptions.3

The public forum in the PAEA environment consists of the PRC issuing a public notice
to open a docket to discuss a specific issue. Stakeholders are encouraged to provide
their written comments as well as reply to written comments made by others. If
necessary, the PRC will hold public forums or hearings. However, what was once a
closely organized, highly technical, proactive discussion and review of the topic is now a
reactive administrative procedure with limited interaction.

While much of the discussion surrounding worksharing is very complicated and open to
interpretation, there is much that can still be said to inform the debate. As part of this
1
  To learn more about the basics of worksharing, see the General Accounting Office (GAO) report, U.S. Postal
Service, A Primer on Postal Worksharing, July 2003, GAO-03-927.
2
  Adjustments are limited by Consumer Price Index for All Urban Consumers (CPI-U). Classes of mail include First-
Class Mail, Standard Mail, Periodicals, and Package Services.
3
  PAEA Section 3622(e)(2) Exceptions: (1) If the discount is new or a change to an existing postal service and it will
be phased out; (2) If the amount of the discount above costs avoided is necessary to mitigate rate shock and it will be
phased out over time; (3) If the discount is provided in connection with subclasses of mail (i.e., Periodicals) consisting
exclusively of mail matter of educational, cultural, scientific, or informational (ECSI) value; or (4) If reduction or
elimination of the discount would impede the efficient operation of the Postal Service.


                                                            1
U.S. Postal Service Office of Inspector General                                  July 12, 2010
Assessment of Worksharing                                                     RARC-WP-10-005


effort to make an independent assessment, the U.S. Postal Service Office of Inspector
General (OIG) interviewed stakeholders including the Postal Service, the PRC, unions,
mailers, and congressional staffers. We also conducted our own analysis. We present
the following key findings.


Key Worksharing Findings

1. Worksharing Has Rapidly Grown to Dominate the Postal Service’s Business

From humble origins, worksharing has grown to become a key piece of the Postal
Service’s business. In 1976, the Postal Service introduced workshare discounts for
presorting First-Class Mail (FCM). Over the next several years, the Postal Service
expanded this early concept to Periodicals and Standard Mail. Starting in the late 1980s
and early 1990s, the Postal Service introduced automation and destination entry
discounts which also spread across most mail classes.

Worksharing has proven to be very popular with business mailers and has grown rapidly
in all major mail classes. The following three figures depict the increase in mail volume
when worksharing was introduced to FCM, Standard Mail, and Parcel Post. Figure 1
depicts how FCM volume increased tremendously upon introduction of workshare
discounts in 1976 while single-piece FCM remained relatively flat until its recent
declines.
                                    Figure 1: First-Class Mail Growth
                                              (Billion Pieces)

          110
          100         Workshare
                       Discounts                                  Total FCM
           90
                      Introduced
           80           in 1976
           70
           60
           50
                                                          Single-Piece FCM
           40
           30
              1974 1977 1980 1983 1986 1989 1992 1995 1998 2001 2004 2007 2010
        Source: OIG Analysis, based on RPW data.


Figure 2 shows mail volumes also increased significantly when worksharing was
introduced to Standard Mail in 1979.




                                                     2
U.S. Postal Service Office of Inspector General                                  July 12, 2010
Assessment of Worksharing                                                     RARC-WP-10-005

                                     Figure 2: Standard Mail Growth
                                              (Billion Pieces)


            110
            100
             90
             80
                     Workshare
             70       Discounts
             60      Introduced
             50        in 1979
             40
             30
             20
                 1976 1979 1982 1985 1988 1991 1994 1997 2000 2003 2006 2009

       Source: OIG Analysis, based on RPW data.


Parcel Post witnessed a dramatic increase in 1991 when worksharing was introduced
as depicted in Figure 3. Many observers credit worksharing with creating a parcel
consolidation industry and reversing the significant volume decline of Parcel Post.
                                      Figure 3: Parcel Post Growth
                                              (Million Pieces)

           600

           500

           400                                      Workshare
                                                     Discounts
                                                    Introduced
           300                                        in 1991

           200

           100
               1970 1973 1976 1979 1982 1985 1988 1991 1994 1997 2000 2003 2006 2009
       Source: OIG Analysis, based on RPW data.


It is important to note that the volume response to workshare discounts has sometimes
greatly exceeded standard price sensitivity measures. Worksharing provided discounts
which clearly incented mailers to presort, pre-barcode, and drop ship their mail pieces.
However, even before workshare discounts were introduced, some mailers were
already engaging in those activities to improve service or for other reasons related to


                                                     3
U.S. Postal Service Office of Inspector General                                                      July 12, 2010
Assessment of Worksharing                                                                         RARC-WP-10-005


their own business goals. In addition to worksharing incentives, it is also important to
note that technological and automation changes enhanced growth as well.

Worksharing did not simply provide discounts, it helped change the way mail was
created, processed, and delivered. It amounted to a de-facto outsourcing of large
portions of the mailstream that helped lower mailer costs, supported improved service,
and engaged influential stakeholders in a new and sophisticated mailing industry.

Today worksharing is mature and stable and has grown to cover over 80 percent of total
mail volume and dominates nearly every aspect of Postal Service marketing, business
mail entry, and processing operations. OIG analysis identified three prevailing
worksharing trends in the figures depicted below. Figure 4 compares single-piece mail
volume to workshared mail volume in the three major classes of mail (FCM, Standard
Mail, and Periodicals) and shows that the proportion of workshared mail reached
81 percent in FY 2008, reflecting the maturity of the program.
                            Figure 4: Single-Piece vs. Workshared Mail in the
                                        Three Major Mail Classes

            100%

             80%

             60%           76%             78%               79%            80%             81%

             40%

             20%
                           24%             22%               21%            20%             19%
               0%
                        FY 2004          FY 2005         FY 2006         FY 2007          FY 2008

                                             Single-Piece          Workshared

           Source: OIG Analysis, based on RPW data.


The second trend reveals that almost 95 percent of workshared mail volume is now
entered at automation rates as depicted in Figure 5. Workshared mail volume in the
three major classes of mail that qualified for automation rates increased slightly from
93 percent in FY 2004 to 95 percent by FY 2008. 4




4
 These percentages were calculated using only the non-Carrier Route volumes. Because Carrier Route mail is not
always processed on a machine, not all Carrier Route pieces require a barcode. Thus, including these volumes in the
analysis would cause misleading results.


                                                         4
U.S. Postal Service Office of Inspector General                                                July 12, 2010
Assessment of Worksharing                                                                   RARC-WP-10-005

                 Figure 5: Percent of Workshared Mail Entered at Automation Rates

             95%
                                                                         94.7%      94.6%
             94%
                                                          94.1%

                                        93.5%
             93%

                         92.6%
             92%


             91%
                       FY 2004         FY 2005        FY 2006           FY 2007   FY 2008

           Source: OIG, Based on NGI Solutions, Inc. Analysis.


Figure 6 depicts the move towards destination drop shipped mail. In FY 2008, over half
(53 percent) of all pieces in the three major mail classes received discounted rates for
being transported closer to destination. While most of this mail was entered at the
destination sectional center facility (DSCF), sizeable shares were also entered at the
destination Bulk Mail Center (DBMC) and the destination delivery unit (DDU).
                    Figure 6: Percent of Workshared Mail by Destination Entry Rate

             50%
                            47%
             40%

             30%                                                  35%


             20%

             10%                                13%

                                                                                  5%
               0%
                          Origin             DBMC                 DSCF            DDU

                                                  Total Destination Entered = 53%
           Source: OIG Analysis, based on RPW data.




                                                      5
U.S. Postal Service Office of Inspector General                                                     July 12, 2010
Assessment of Worksharing                                                                        RARC-WP-10-005


2. Workshare Discounts Supported the Growth of a Large Mailing Industry that
   Shared $15 Billion in Postal Service Discounts in FY 2008

Workshare discounts have become an essential piece of a mailing industry that has an
economic impact of over $1 trillion and is a source of employment for around 8 million
people. 5 It has allowed mailers to take on a much larger role in preparing and
presenting their mail to the Postal Service. It has allowed them to be innovative and cut
costs. Worksharing has created new markets. It has allowed rates to be more
customized and mailers to use the Postal Service in the specific ways that suit their
unique business needs. Workshare discounts have also allowed mailers to improve
both service and consistency of service while reducing postage costs. However, this
success raises a question: How much of this progress could have occurred anyway at
somewhat lower discounts?

Worksharing has also spurred a mailing support industry to help mailers comply with the
complicated rules and rates. Many large companies have in-house mailing operations or
outsource mail preparation to MSPs. MSPs perform different activities and include direct
marketing firms, software vendors, list servicers, presort bureaus, letter shops, printers,
fulfillment centers, and mail transporters and consolidators.6 Smaller mailers may use
MSPs because of the need to efficiently meet minimum volume and other mail
preparation requirements to obtain better discounts. Large and small mailers may use
MSPs because they need help with complicated mail preparation rules. Others
outsource mail preparation to MSPs simply because they want to focus their internal
resources on their primary business. Appendix A highlights key members of the
worksharing supply chain and some of the activities they perform.

Based on analysis we sponsored, in FY 2008 the Postal Service provided $15 billion
worth of discounts for work that saved $14.8 billion in avoided costs. 7 Table 1 depicts
the breakdown of cost avoidance by mail class and the discounts passed through to
mailers. Overall, the total discounts were more than the costs the Postal Service
avoided by $200 million. Appendix B outlines the details of the calculations.




5
  2008 Economic Job Study Final Report issued by the Envelope Manufacturers Association, June 2008.
6
  The mailing industry supply chain also includes paper manufacturers, envelope fabricators, mail equipment
companies, designers, and meter manufacturers. The companies vary in size from small family-owned businesses to
major companies that are publicly traded and employ thousands. According to the Postal Service’s Business Insights
Report 2010-2014, Quarter III, FY 2009, list servicers, presort bureaus, letter shops, consolidators, and logistics
services share annual revenues of $24 billion; while printers, graphic artists, and document production and
processors share revenues of $55 billion.
7
  These figures are generally consistent with the total FY 2004 cost avoidances ($14.4 billion) and discounts
($14.1 billion) presented in a PRC Staff Study, Worksharing: How Much Productive Efficiency, at What Cost
and at What Price, Cohen, Robinson, Waller, and Xenakis, edited by M. A. Crew and P. R. Kleindorfer,
2006, Boston: Kluwer Academic Publishers.


                                                         6
U.S. Postal Service Office of Inspector General                                                    July 12, 2010
Assessment of Worksharing                                                                       RARC-WP-10-005

             Table 1: FY 2008 Worksharing Cost Avoidance & Discounts by Class of Mail
                                                  (In Billions)

                                          Total Cost
                                           Avoided                Total Discounts
                                            by the                    Provided
             Class of Mail               Postal Service              to Mailers         Difference

             First-Class Mail                  $4.1                     $4.2             $ - 0.1
             Periodicals                       2.0                       1.7              + 0.3
             Standard Mail                     7.9                       8.3               - 0.4
             Package Services                  0.8                       0.8                 0
             Total                            $14.8                    $15.0             $ - 0.2
            Source: OIG, Based on NGI Solutions, Inc. Analysis.

Table 1 shows that, in total, Postal Service discounts were slightly more than the
avoided costs. However, it also shows that for some mail classes, discounts are less
than avoided costs. While not shown in the table, it is also true that within each mail
class, some discounts are more while some are less than avoided costs.8 A key point to
understand is that problems with discounts that are set too high (discounts more than
the avoided costs) are not eliminated by discounts that are lower than avoided costs
even though such problems appear to largely offset each other in summaries like those
shown in Table 1.

3. Worksharing Has a Crowded Field of Influential Stakeholders with Conflicting
   Interests

There is a crowded field of stakeholders with great influence and opposing views and
needs. While many are concerned about the price of postage, others are concerned
about the level of discounts or the competition for work and jobs. Stakeholders include
business mailers, MSPs, Postal Service competitors, Congress, the PRC, unions, and
the general public (single-piece mailers). Figure 7 depicts worksharing stakeholders
with the Postal Service at the core. Appendix C outlines the landscape of stakeholders
and their individual interests in worksharing.




8
  The PRC, in its FY 2009 Annual Compliance Determination report, stated that of the workshare discounts that were
examined, 30 discounts exceeded (were more than) the avoided costs. Of those 30 discounts, the PRC determined
that 17 were justified by one of the four exceptions outlined in PAEA; however, 13 were not.


                                                        7
U.S. Postal Service Office of Inspector General                                                  July 12, 2010
Assessment of Worksharing                                                                     RARC-WP-10-005

                                   Figure 7: Worksharing Stakeholders


                                                  Business
                                                   Mailers

                 Mail Service Providers                                   Competitors




                                                   Postal                        Postal
                  Labor Unions                                                 Regulatory
                                                  Service                      Commission



                   Single-Piece Mailers                                     Postal
                                                                         Commentators

                                                  Congress



The PRC’s interests include compliance with PAEA, ensuring adequate revenues and
maximizing incentives to reduce Postal Service costs. The Postal Service is primarily
interested in worksharing to increase mail volume and reduce costs through efficient
operations, staffing, and workload. The unions are interested in increased mail volume
as well. However, the APWU9 also views mailers and MSPs that perform worksharing
activities as competition for union jobs and is focused on discounts not exceeding
avoided costs.

Worksharing represents a financial incentive for mailers and MSPs to influence the
postal policy debate. Not surprisingly, there have been controversies over the size of
workshare discounts, how they are calculated, and how broadly they are applied. The
mailing industry is large, representing billions of dollars in revenues and millions of jobs.
Mailers and MSPs have developed relationships that have evolved over the 30 year
history of worksharing and in FY 2008 saved $15 billion in postage discounts.

However, the interests of mailers and MSPs are not always aligned. Mailers are focused
on postage expense, which can be a very large portion of their mailing budget. For
mailers, the mail is a means to an end and is used to accomplish other goals, such as
selling products and services and communicating with current and potential customers.
Lower prices mean mailers can send more pieces for the same total cost.


9
 See “New Heights – of Absurdity – In Rate Setting,” American Postal Worker, November/December 2009,
www.apwu.org. The APWU has requested that the Postal Service “discontinue the exorbitant postage discounts that
are offered to large mailers and allow members of the APWU to perform all mail processing.”


                                                       8
U.S. Postal Service Office of Inspector General                                                     July 12, 2010
Assessment of Worksharing                                                                        RARC-WP-10-005


The business model for some MSPs, on the other hand, depends on the level of
workshare discounts rather than on postage costs. Some MSPs live on the spread
between the basic rates and the discounted rates. As a result, an MSP might be
concerned if specific discounts decreased even if overall postage costs declined. For
example, if workshare discounts were eliminated, but average postage rates declined
significantly, the mailers would be happy, but some MSPs might cease to have as large
a role.

Even within the same segment of stakeholders, different sub-segments can have very
different views. For example, mailers in different mail classes, such as FCM or
Periodicals, can disagree on how discounts are calculated and implemented. Postal
unions are divided on the impact worksharing has on jobs. Postal commentators have
widely differing views on many aspects of worksharing.

4. There Could be a New Incentive and Opportunity to Set Workshare Discounts
   at Less Than Avoided Costs

The PAEA pricing flexibility and the wide gap between Postal Service discounts and the
mailer cost to workshare may create both an incentive and opportunity to set discounts
at less than the avoided costs.

PAEA may create an incentive for discounts to be less than avoided costs
Efficient Component Pricing (ECP) has governed worksharing economics for over
30 years. ECP principles require workshare discounts to be set equal to avoided
costs. 10 For example, if it is estimated that a given activity saves the Postal Service
10 cents per piece, then 100 percent of this avoided cost should be offered to the mailer
and the Postal Service sets the discount at 10 cents per piece, thereby lowering the
mailer’s price by 10 cents per piece.

However, while the mandate of the former postal law — the PRA — was to break even,
the mandate of PAEA is to retain earnings. PAEA also introduced pricing flexibility
through the move to price cap regulation. Recent theoretical research sponsored by the
OIG revealed that under PAEA the Postal Service may find it profitable to reduce
discounts below avoided cost. If this result receives empirical support, the Postal
Service may be able to improve its net income by reducing discounts. 11 This initial
research requires careful, independent analysis to test its practical implementation and
might set the tone for the next generation of worksharing.


10
   Docket No. MC95-1, the PRC provided rationale for ECP as the economic premise supporting worksharing and
how worksharing discounts should be developed. Docket No. R2006-1, the PRC’s Opinion and Recommended
Decision, Volume 1, February 26, 2007, the PRC outlines the role of ECP. Also see ECP discussion in the PRC
Annual Compliance Determination, US Postal Service Performance FY 2008, March 30, 2008.
11
   OIG report, Postal Service Pricing Policies after PAEA by John C. Panzar, Ph.D., February 8, 2010,
(RARC-WP-10-002). Dr. Panzar’s research also points out that such discount reductions could be viewed as
exclusionary and may cause problems under the antitrust liability also introduced under PAEA. The empirical support
for reducing discounts would rely on the relative price elasticities and unit contribution of workshared and non-
workshared mail. The specific volume responses of mail categories or individual mailers to small price changes vary
over time and could impact net income in either direction.


                                                         9
U.S. Postal Service Office of Inspector General                                                         July 12, 2010
Assessment of Worksharing                                                                            RARC-WP-10-005


For example, if a given activity saves the Postal Service 10 cents, past practice would
have been to say the discount should be set at 10 cents. But, the new incentives under
PAEA suggest the discount could be set at less than 10 cents. The Postal Service could
set the discount say at 8 cents and keep 2 cents to channel back into the business.

Discounts that exceed mailer costs to workshare create an opportunity for setting
discounts at less than avoided costs
While changed incentives may encourage the Postal Service to set discounts at less
than avoided costs, it is essential that the spread between the mailer’s cost and
workshare discount be large enough so that there is an opportunity to lower the
discount. When calculating workshare discounts, the Postal Service estimates the cost
that it avoids largely by creating models that mimic Postal Service mail processing and
transportation activities. Cost inputs used in these models are obtained from various
statistical programs and are based primarily on averages and statistically sampled
data. 12 There has been controversy over the Postal Service’s cost savings estimates,
and pre-PAEA rate cases often spent a great deal of time on those issues. It is
important to note that those savings are projected estimates only. 13

The costs for mailers to engage in worksharing activities have not been part of the
debate about cost savings estimates. However, a PRC staff study estimated that for
mail processing discounts, the costs to the largest and most efficient mailers and MSPs
was never greater than 20 percent of the discount received. The study also estimated
that for transportation discounts the cost to the mailer was never more than 50 percent
of the discount received. 14 The OIG applied the PRC staff study cost estimates to the
$15 billion in Postal Service FY 2008 discounts to mailers. Table 2 below shows the
resulting estimates of the costs for mailers to perform mail processing and
transportation workshare activities. If this simple application of the PRC cost estimates
is accurate, mailers and MSPs earned $15 billion in discounts in FY 2008 for engaging
in worksharing activities that may have cost them only $4.3 billion.




12
   For more information about Postal Service cost models, see OIG report, Management of Special Studies,
CRR-AR-10-002, March 19, 2010.
13
   There has been no organized effort to determine if there were actual savings in line with the estimates. Any efforts
toward such validation might help provide objective evidence to address some of the disputes around the Postal
Service’s cost savings.
14
   See the PRC staff paper, Worksharing: How Much Productive Efficiency, at What Cost and at What Price, Cohen,
Robinson, Waller, and Xenakis, edited by M. A. Crew and P. R. Kleindorfer, 2006, Boston: Kluwer Academic
Publishers (p. 3). The cost estimates were based on a very small focus group conducted jointly by the PRC and the
Postal Service. The two members of the focus group responsible for these estimates are well known and very
knowledgeable members of the postal community and cannot be named according to the ground rules for
participation in the focus group.


                                                          10
U.S. Postal Service Office of Inspector General                                                                July 12, 2010
Assessment of Worksharing                                                                                   RARC-WP-10-005

                          Table 2: The Value of Workshared Activities in FY 2008
                                                       (In Billions)

                                             Postal Service               Mailer
                   Worksharing                Discounts to               Cost to                Mailer
                     Activity                    Mailers                Workshare*             “Profit”
                  Mail Processing                  $10.7                     $2.1                 $8.6
                  Transportation                    $4.3                     $2.2                 $2.1
                  Totals                           $15.0                     $4.3                $10.7
                  *Mailer Cost to Workshare was derived by taking the percentages identified in the PRC staff
                  study – 20% to process and 50% to transport – and multiplying them by the Postal Service
                  Discounts to Mailers.

                Source: OIG Analysis.

Regardless of the precise measures, it is clear that it costs at least some mailers and
MSPs substantially less to perform worksharing activities than the discounts they are
provided. Worksharing is lucrative for the mailing industry because mailers and MSPs
can benefit if their costs are lower than Postal Service costs.

Mailer costs, by their very nature, will generally be less than Postal Service costs. While
most presort bureaus use sorting equipment similar to that used by the Postal Service,
their costs can be lower if there is greater productivity or if employees are paid lower
wages. 15 In addition, presorting electronic address data before the mail piece is
produced is inherently cheaper than sorting the physical piece as the Postal Service has
historically been required to do. Likewise, printing a barcode under the address as the
mail piece itself is originally produced is inherently less expensive than having to
barcode a live piece of mail in the Postal Service’s system.

With the wide gap between mailer costs and the discounts they receive, combined with
the new post-PAEA incentives to retain earnings, it appears the time is ripe for the
Postal Service, the PRC, and the stakeholder community to reevaluate ECP and
explore discounts that continue to encourage worksharing, but could be less than
estimated cost savings for the Postal Service. However, to ensure maximum benefits in
this new environment, interested parties and stakeholders need to explore this
important issue through further rigorous and independent analysis.

5. Because Discounts May Greatly Exceed Mailer Costs, Some Less Efficient
   Providers of Mail Services Might be Engaging in Worksharing

The goal of worksharing has been to enhance the combined economic efficiency of both
the private mail industry and the Postal Service. Thus, another important and long
standing principle that underlies worksharing has been “lowest combined cost.” While

15
  Presort bureaus typically share some portion of the discount with the mailers who tender their mail to them. The
largest volume mailers may get a much greater share of the discount than smaller mailers.


                                                             11
U.S. Postal Service Office of Inspector General                                                          July 12, 2010
Assessment of Worksharing                                                                             RARC-WP-10-005


the current system has attempted to address Postal Service inefficiency by offering
others the opportunity to do the work, it has not addressed potential inefficiencies within
the private mailing sector. The current worksharing environment may be allowing some
less efficient providers of mail services to workshare because the discounts are set well
above the inherent mailer cost.

The following figure provides a hypothetical example of mail processing costs for
different mailers or MSPs performing worksharing activities. Figure 8 depicts how much
it might cost the Postal Service to perform a certain mail processing activity and how
much it might cost two different mailers or MSPs to perform the same activity. In this
example, suppose it costs the Postal Service 10 cents to perform a given mail
processing activity and it extends a 10 cent discount. All mailers who can do the work
for less than it costs the Postal Service have an incentive to do so. However, if the
same 10 cent discount is accepted not only by the more efficient mailer (Mailer 1), who
can do it for only 2 cents, but also by Mailer 2, for whom it costs 7.5 cents, then lowest
combined costs may not be achieved. This assumes that the more efficient Mailer 1 is
willing and able to do Mailer 2’s work for 2 cents.
               Figure 8: Cost of Mail Processing Activity by the Postal Service & Mailers



               Postal
                                                                                                      10.0¢
               Service

               Mailer 2                                                           7.5¢


               Mailer 1                     2.0¢


                          0      1      2          3   4        5    6      7      8       9     10      11
                                         Cost to Process Mail (In Cents)

         Source: OIG Analysis.


To maximize efficiency of Postal Service operations and to keep postage costs at a
minimum for all mailers, only the most efficient mailers should perform worksharing
activities. 16 However, as discussed previously, discounts may be set larger than are
truly necessary to incentivize worksharing. In fact, it may also be encouraging less
efficient providers of mail services to perform worksharing activities.




16
  While ECP has guided pricing policy, many stakeholders and academic economists have argued for using a
Ramsey pricing approach, which takes into account the price sensitivity of the mailer to setting the discounts.
Ramsey pricing principles would allow the Postal Service to charge a higher price for products that are less price-
sensitive and a lower price for more price-sensitive products. The Postal Service would still have to adhere to price
caps and other limitations on workshare discounts.


                                                           12
U.S. Postal Service Office of Inspector General                                                July 12, 2010
Assessment of Worksharing                                                                   RARC-WP-10-005


6. Worksharing Has Created Unintended Consequences

In addition to our key findings regarding costs, incentives, discount levels, and
efficiency, there are also some more general comments on the unintended
consequences that worksharing has created. The Postal Service offers workshare
discounts to mailers who perform work that the Postal Service would otherwise have to
do itself. To be fair and consistent in determining the bases for the discounts and to
maximize efficiency, the Postal Service provides very specific instructions on how mail
must be presented in order to receive those discounts. The Postal Service also provides
mailers with an extensive list of options that allow for highly customized postal rates.
Although the complicated rules and the numerous rate options have created benefits,
they have also created difficulties.

Some mailers may feel they are being shut out
The most recent Postal Service rate list is 44 pages long and contains over 10,000
different prices. 17 In addition, the Postal Service’s Domestic Mail Manual (DMM)
contains over 1,700 pages of mail preparation requirements that can be overwhelming
to new entrants and less experienced mailers. While each workshare discount may
have made sense upon introduction, the cumulative effect of these discounts has been
a complicated set of rates that may not best suit the needs of all mailers. Some mailers
are outspoken and happy with the wide variety of options and complicated rules and
continue to push for even more discounts. Some mailers support the numerous rate
options, but are unhappy with the complicated eligibility rules. However, our discussions
have revealed that some mailers do not feel like they have been well served by
worksharing and would prefer a more streamlined price list and simpler rules.
Consequently, these mailers may either turn to MSPs or choose not to use mail at all.

Revenue assurance problems
Complex rules and rates make it hard for postal clerks to assess if mailers have
complied with all the mail preparation requirements and if the Postal Service is fairly and
responsibly collecting all the revenue it is due. Business mail acceptance procedures
are critical to the Postal Service’s revenue assurance efforts and are intended to ensure
that the mailers actually perform the work that saves the Postal Service costs. However,
enforcing such rules in a live environment where hundreds of millions of mail pieces are
processed every day can be difficult. According to the Postal Service, more than
60 percent of revenue ($39 billion) comes through business mail acceptance. 18 The
problems with revenue enforcement for workshared mail go back decades and seem to
be an inherent problem stemming from billions of pieces of mail, millions of customers,
thousands of prices, complex rules, and a fast-paced mail acceptance environment. The
OIG and the GAO have both conducted audits on the Postal Service’s business mail
acceptance practices and have long noted such problems. 19


17
   Postal Service Price List, (Notice 123), Effective March 14, 2010.
18
   USPS News Link article, Focus on Sarbanes-Oxley, January 14, 2010.
19
   See OIG audit report, FY 2009 Financial Installation Audit – Business Mail Entry Units, (Report Number
FF-AR-10-051, December 22, 2009). See GAO reports, U.S. Postal Service: Stronger Mail Acceptance Controls


                                                      13
U.S. Postal Service Office of Inspector General                                              July 12, 2010
Assessment of Worksharing                                                                 RARC-WP-10-005


7. The United States Has the Largest, Most Sophisticated Worksharing Program
   in the World

We analyzed postal worksharing in three of the largest European markets (France,
Germany, and the UK) and compared them to the Postal Service’s worksharing
program. The three posts together account for almost two-thirds of the letter volume in
the 27 countries of the European Union. The postal products and the discount schemes
offered in the three countries are different from one another and different from those
offered in the United States. Appendix D provides a summary of postal products, types
of discounts and the extent to which worksharing is regulated and used. While some in
the United States criticize the Postal Service’s worksharing efforts, the Postal Service’s
worksharing program is recognized as by far the most extensive and sophisticated in
the world. In general, worksharing in the United States has a longer history, and the
percentage of mail that is workshared is considerably larger than in France, Germany,
and the UK.

Europe does not have the same degree of transparency in the discounts or in the
underlying cost avoidances. Under European legislation, there are no specific pricing
rules for workshare discounts, although there is a general requirement for prices to be
cost based. Worksharing in Europe is strongly affected by a competitive mail market.
Overall, workshare discounts in Europe tend to be based less on robust cost analysis,
and reflect more the commercial competitive strategies of postal operators. Competitive
pressure seems to be leading to high workshare discounts that are relatively similar to
the regulated discount levels in the United States.


Conclusion
In many ways, worksharing has been a resounding success in the United States and a
model for other posts to emulate. It has come to completely dominate business mailings
and is an integral part of the U.S. postal system. Yet, there are still problems to be
addressed and opportunities to be explored. First, the Postal Service should find a way
to balance the value of workshared rates against the complexity of worksharing. More
discounts may not always be better. Second, there is an opportunity for the Postal
Service to strategically use worksharing to transform its business. Many businesses use
pricing to help manage capacity and operations. The Postal Service could do the same.
In an environment of volume declines and excess capacity, the Postal Service’s prices
should reflect the market conditions and the operational environment of today and not
yesterday. Third, there may be an incentive for the Postal Service to enhance earnings
by setting discounts below avoided costs and it should evaluate this possibility. Feeding
such earnings back into the business could be of benefit to all. Worksharing has been a
phenomenal success and served the Postal Service and its customers well for the last
30 years. The time is right to reexamine it for the next 30 years.


(continued from previous page)
Could Help Prevent Revenue Losses (GGD-96-126, June 25, 1996) and U.S. Postal Service: Changes Made to
Improve Acceptance Controls for Business Mail (GGD-00-31, November 9, 1999).


                                                    14
U.S. Postal Service Office of Inspector General             July 12, 2010
Assessment of Worksharing                                RARC-WP-10-005




                                            Appendices




                                                  15
U.S. Postal Service Office of Inspector General                                                     July 12, 2010
Assessment of Worksharing                                                                        RARC-WP-10-005


Appendix A               Key Players in the Worksharing Supply Chain

         MSP                                           SELECTED ACTIVITIES
 Direct Marketing       • Assist mailers with making the business decision to use the mail, or other alternatives
 (Media, Print, &
 Creative Firms)
 Writing Paper and      • Supply the mailing industry with paper and envelopes
 Envelope
 Manufacturers
 Software Vendors       • Supply programs to update mailing lists and to apply barcodes
                        • Supply software to assist mailers in properly preparing presorted mail according to
                          Postal Service regulations
                        • Have capability to run the software against mailer lists to check for accuracy
 List Service &         • Supply lists to mailers and MSPs
 Customer Relations     • Supply customer analytics
 Management
 Presort Bureaus        • Virtual presorting — sort addresses and prepare barcodes on the computer prior to
 (Service Bureaus)        physically producing mailpieces
                        • Sort and when necessary, pre-barcode First-Class Mail for mailers with volumes
                          insufficient to presort on their own
                        • Sort Standard Mail using spare capacity during the hours when they are not busy
                          sorting First-Class Mail
                        • Consolidate mail picked up from the firms that they service, physically sort mail and
                          deliver it to the local post office
                        • Handle “residual” mail from large volume mailers. Residual mail is mail that large
                          volume mailers are not able to sort deeply enough to get the desired discounts. Presort
                          Bureaus are able to consolidate residual mail from various mailers to obtain larger
                          discounts
                        • Frequently provide or arrange transportation of mail they produce. The bureau may
                          have its own fleet of trucks or will subcontract this function
 Letter Shops           • Collate mailing package components, addressing, folding, inserting, and preparing mail
                          using Postal Service regulations for entry into the mailstream
                        • Prepare large volume mailings
                        • May offer creative services such as copywriting, list compilation, and list maintenance
 Printers               • Print letters, catalogs, and magazines
                        • Virtual presorting — the mailing lists are presorted on the computer prior to the labels
                          being placed on the mail piece in the printer’s bindery line, where they are separated
                          into bundles and placed on pallets (or sacks). This activity is universal and is usually
                          bundled into the printing cost
                        • Co-palletize bundles of mail from different mailings to achieve the minimum pallet
                          weights required for entry into the system
                        • Co-mail different titles into bundles that (at a minimum) meet the minimum piece count
                          to qualify for increased discounts
                        • Frequently provide or arrange transportation of mail they produce. The printer may have
                          its own fleet of trucks or will subcontract this function
 Fulfillment Centers    • Sell products and services such as subscriptions, book club memberships, catalog
                          merchandise, and fundraising
                        • Activities include mail opening, caging, order entry, customer service, address label
                          printing, presorting, merchandise picking and packing
                        • Frequently provide or arrange transportation of mail they produce
 Transportation &       • Pick up and consolidate less than full truck loads and drop ship the mail deeper into the
 Consolidators            Postal Service network and as close to the destination as time and cost allow
                        • Specialize in logistics and full truck loads




                                                       16
U.S. Postal Service Office of Inspector General                                   July 12, 2010
Assessment of Worksharing                                                      RARC-WP-10-005


Appendix B               Cost Avoidance & Discount Calculation Methodology

Total worksharing cost avoidance and discounts were calculated for FY 2008 by multiplying
volumes or weights for each rate category by the corresponding cumulative per-piece or
per-pound cost avoidances and discounts. The source of the unit cost avoidances and
discounts was obtained from the PRC’s FY 2008 Annual Compliance Determination. The
volume data was obtained from multiple sources; however, the ultimate data sources were
Postal Service Billing Determinants and Revenue, Pieces, and Weight (RPW) by Shape
Reports.

The calculations assume that in the absence of workshare discounts, mailers would perform
none of the work required to receive these discounts. However, this assumption is not fully
plausible since before there were workshare discounts mailers performed some of this work
even though they were not compensated. The $14.8 billion cost avoidance estimate is a
lower-bound estimate for the following three reasons:

    •   The calculations only include worksharing activities for which there is a benchmark
        allowing a cost avoidance to be calculated. For example, it does not include any
        costs avoided by mailers entering Periodicals at destination facilities because
        information on where these pieces would otherwise have been entered is not
        available.

    •   Some mailers perform uncompensated worksharing (e.g., entering Media Mail at
        destination facilities to improve service even though there are no discounts for doing
        so), the extent of which is not tracked.

    •   Figures for mail in the former Standard Mail Enhanced Carrier Route (ECR) subclass
        are calculated using ECR Basic as the benchmark from which cost avoidances and
        discounts are calculated. Using a Mixed AADC benchmark would significantly
        increase the total Standard Mail cost avoidance and discount estimates.

The costs avoided by presorting and barcoding are presented as a single line item because
cost models generally estimate these cost avoidances jointly. The vast majority of the
worksharing cost avoidances and discounts are generated by mailer presorting and
barcoding, rather than by transportation. This is partially due to the absence of
transportation discounts in First-Class Mail. The Package Services class (including Parcel
Select) is an exception. Because parcels are much bulkier than letters and flats and thus
more expensive to handle (e.g., cross dock), Package Services rates — in particular, Parcel
Post and Bound Printed Matter — generally emphasize drop ship. Presorting is generally
relegated to an ancillary requirement to qualify for transportation discounts.

In addition, the FY 2008 cost avoidance estimate by Mixed AADC Automation letters
(relative to Mixed AADC Nonautomation letters) is negative 1 cent. This suggests that
barcoding these letters increases sorting costs. By setting this cost avoidance equal to zero,
the total Standard Mail cost avoidance increases to $8.4 billion, slightly more than the
corresponding Standard Mail discounts. Periodicals drop ship cost avoidance is not
applicable because there is no benchmark for the Periodicals Outside County product from
which to estimate this cost avoidance.


                                                  17
U.S. Postal Service Office of Inspector General                                                                                  July 12, 2010
Assessment of Worksharing                                                                                                     RARC-WP-10-005


Appendix C                      Stakeholders and their Opposing Interests

                                 Why the Stakeholder
                                    Cares About                               Worksharing                               Worksharing
    STAKEHOLDER                     Worksharing                               Advantages                               Disadvantages
 Postal Service
 • Operations                  • Represents 80% of Mail Volume       • Increased Mail Volume                • Balance Stakeholder Interest
 • Pricing                     • Represents $15 Billion in Dollars   • Costs Reduction                      • Disputed Cost Systems & Models
 • Finance                       Associated with Cost Avoidance      • Allows Increased Product Line        • Perception that Discounts Provided
 • Legal                       • Compliance with PAEA                  Diversification                        to Large Mailers are at the Expense
 • Mailing Standards           • Efficient Staffing & Workload       • Encourages Efficient Operations        of Small Customers
 • Mail Acceptance             • Efficient Processing, Operating,    • Efficient Mail Stream & Supply       • Increased Regulatory Risk – the Law
 • Inspection Service            and Transportation Networks           Chain                                  vs. Regulatory Oversight
                               • Effect on Stakeholders              • Customized Pricing                   • Increased Administrative Burden to
                                                                                                              Protect Revenue
                                                                                                            • Must Manage Operation for Diverse
                                                                                                              Product Lines

 Postal Regulatory Commission
 • Commissioners               • Compliance with PAEA                • Increased Mail Volume                • Balance Stakeholder Interest
                               • Interpretation of PAEA              • Encourages Efficient Operations      • Perception that Discounts Provided
                               • Accurate Cost Methodologies         • Reduces Postal Service Costs           to Large Mailers are at the Expense
                                                                                                              of Small Customers
                                                                                                            • Disputed Cost Methodologies
                                                                                                            • Law vs. Regulatory Oversight

 Labor Unions
 • APWU                        • Impacts Jobs                        • Increased Mail Volume                •   Compete with MSP
                                                                                                            •   Displaced Workload or Content
                                                                                                            •   Loss of Jobs
                                                                                                            •   Loss of Members
 • National Association of     • Impacts Jobs                        • Increased Mail Volume
   Letter Carriers/National
   Rural Letter Carriers
   Association
 • National Postal Mail        • Impacts Jobs                        • Increased Mail Volume                •   Compete with MSP
   Handlers Union                                                                                           •   Displaced Workload or Content
                                                                                                            •   Loss of Jobs
                                                                                                            •   Loss of Members
 Mailers
 • Financial                   • Low Postage Cost                    • Provides Reduced Postage Rates       • Ever-Changing and Complicated
 • Merchants                   • Faster and More Consistent          • Efficient Mail Stream & Supply         Rules & Rates
 • Services                      Service                               Chain                                • Small Increases in Postage are
 • Publishers                                                        • Allow Mailers to Play a Larger         Expensive
 • Federal Government                                                  Role                                 • May Not Obtain ROI for Equipment
 • Nonprofits                                                                                                 and Other Items Purchased to
                                                                                                              Adhere to New Rules

 Mail Service Providers (MSP)
 • Printers                    • Impacts Mail Volume                 • The Price Spread Provides a          • Ever-Changing Rules & Rates
 • Presort Bureaus             • Level of Discounts                    Business Model                       • May Not Obtain ROI for Equipment
 • Lettershops                 • Impacts Jobs                        • Increased Mail Volume                  and Other Items Purchased to
 • List Services               • Some MSPs Rely on the               • Efficient Mail Stream & Supply         Adhere to New Rules
 • Software Companies            Workshare Discount Spread             Chain
 • Logistics: Transporters &                                         • Knowledge of Complicated Rules
   Consolidators                                                       and Rates Benefits MSP and May
                                                                       Increase Demand for Services

 Political
 • Congress                    • Writes the Law                      • Success Story for Interaction with   • Balance Stakeholder Interests
 • Congressional Oversight     • Stakeholder Interests –               Customers in a Commercial            • Decisions May Not be in Postal
   Committees                    Including Constituents                Marketplace                            Service’s or Mailing Industry’s Best
                               • Jobs in the Postal Service                                                   Interest
                               • Jobs in the Mailing Industry

 American Public
 • Single-Piece Rate Payer     • Lower Cost to Mail                  • Lower Cost to Mail                   • Larger Mailers may Benefit More




                                                                       18
U.S. Postal Service Office of Inspector General                                                                  July 12, 2010
Assessment of Worksharing                                                                                     RARC-WP-10-005


Appendix D                 Worksharing at Other Posts

                      Types of                    Types of                National Regulatory
                     Workshared                  Workshare                Authority & Role of           Extent Worksharing
    Country           Products               Discount Activities              Regulation                      is Used
    FRANCE        •First-Class Mail      •   Presorting                  Autorite de Regulation des     • Workshare discounts
    La Poste       Letters               •   Bundling                    Communication                    offered since early
                  •Second Class Mail     •   Franking                    Electroniques et des             1980’s
                   Letters               •   Machinability               Postes (ARCEP)                 • Discounts to large
                  •Advertising Mail      •   No discounts for drop       • No legal requirement to        mailers are roughly
                                             shipping                       offer workshare               20 percent of full postage
                                                                            discounts                   • 34 percent of all letter
                                                                         • No regulatory approval         post items were
                                                                         • No pricing legislation         workshared in 2007
                                                                         • Price Cap based on           • Majority of workshared
                                                                            CPI-X                         items were advertising
                                                                         • Prices must be cost-
                                                                            oriented and non-
                                                                            discriminatory
                                                                         • Workshare discounts
                                                                            must take account of
                                                                            cost avoidance but no
                                                                            specific standard has
                                                                            been established

   GERMANY        •First-Class Mail      • Presorting                    Bundesnetagentur fur           • Discounts offered to
  Deutsche Post   •Advertising Letters   • Bundling                      Elektrizitat, Gas,               mailers, but not MSPs
                                         • Franking or PPI               Telekommunikation, Post        • Mailing houses cannot
                                           Impression                    und Eisenbahnen (BNetzA)         consolidate advertising
                                         • Volumes of posting and        • Mandated drop ship             mail from different
                                           combined volume per              discounts for First-Class     mailers to obtain higher
                                           quarter of year                  Mail in 1999-2000             discounts
                                         • Drop shipping                 • Rates must not be            • Very limited discounts for
                                         • No discounts for                 excessive, predatory, or      First-Class Mail
                                           barcoding or address             discriminatory              • In 2008, 6 percent of
                                           quality                                                        mail was workshared
                                                                                                        • In 2008, 10.7 percent of
                                                                                                          letters were delivered by
                                                                                                          competitors

     UNITED       •First-Class Mail      • Presorting to areas           Postal Services                • In the financial year
    KINGDOM        Letters               • Presorting to delivery        Commission (Postcomm)            ending in March 2008,
    Royal Mail    •Second Class Mail       sequence                      • Created in 2000                20 percent of the mail
                   Letters               • Accuracy of addresses         • Regulates Standard             was workshared
                                           and machinability               workshare discounts in a     • Of which, 57 percent was
                                         • Barcoding                       price cap regime               handled by consolidators
                                         • Franking or PPI               • Drop ship rates do not       • No competition for the
                                           impression                      require regulatory             delivery of letters
                                         • Volumes of posting              approval                     • Drop ship discounts only
                                         • Royal Mail has                                                 offered for First Class
                                           agreements with                                                Mail products
                                           consolidators for drop ship
                                           discounts at the DSCF
                                         • “Sustainable Mail”, or
                                           environmentally friendly
                                           mail
                                         Royal Mail Wholesale
                                         • Separate legal entity used
                                           to manage access
                                           contracts
                                         • Manages access
                                           contracts for drop ship
                                           discounts for First Class
                                           Mail products only




                                                              19
U.S. Postal Service Office of Inspector General                            July 12, 2010
Assessment of Worksharing                                               RARC-WP-10-005


                                       Acknowledgements

This is a Risk Analysis Research Center (RARC) white paper. It summarizes our
research work on this topic and provides our analytical review and conclusions. The
purpose of RARC white papers is to provide data and analysis for management review
and deliberations and to provide information to other interested parties.

Charlie Crum, Felicia Hawkins, and David Yacobucci contributed to this paper.




                                                  20
